                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDLTM




        This case involved a series of applicationsto NSF SES positions sent by a private individual1
(not employed by NSF or the federal government) in NSF 'Penalty Cover' envelopes., These
envelopes clearly state "Official Business: Penalty for Private Use $300." Penalty Cover envelopes
are discussed at 39 U.S.C. Section 3201 et seq. but 'there are no corresponding enforcement
provisions. As the small monetary value would most likely preclude any DOJ involvement, our
office sent a stern letter stating that in "the future, please refrain from mailing NSF 'penalty cover'
envelopes for any reason, or our office may be forced to pursue legal action." Our office did not
request any reply correspondence. This case is closed.
